r

Circuit Court for Montgomery County
Case No. 427983-V
UNREPORTED
IN THE COIIRT OF SPECIAL APPEALS
OF MARYLAND
Nos. 1037 and 3041
September Term, 2018

CONSOLIDATED CASES
GARY PISNER
v.
ROBERT M. McCarthy
Berger,
Wells,
Wright, Alexander, Jr.
(Senior Judge, Specially Assigned),
JJ.
Opinion by Wright, J.
Filed: March 18,2020

This is an unreported opinion, and it may not be cited in any paper, brief, motion, or other
document filed in this Court or any other Maryland Court as either precedent within the
rule of stare decisis or as persuasive authority. Md. Rule 1-104.

-Unreported Opinion-

After the death of Marion Pisner in 2009, her children, appellant Gary Pisner and
Marla Pisner Rubinstein, succeeded her as co-trustees of a revocable trust she had created
in 2008. When “continuing stalemates” affecting the administration of the trust arose
between Pisner and Rubinstein, the Circuit Court for Montgomery County, over Pisner’s
objection, assumed jurisdiction over the trust, removed Pisner and Rubinstein as trustees,
and appointed appellee Robert McCarthy as substitute trustee to administer the trust under
court supervision.1
Pisner requested that the circuit court remove McCarthy as trustee, but the court
declined to do so and approved final distribution from the trust. Pisner, pro se, filed two
notices of appeal of that decision, docketed in this Court as No. 3041, September Term,
2018. In addition, the circuit court held Pisner in contempt for failing to provide trustrelated documents to McCarthy as part of McCarthy’s court-ordered accounting. Pisner
also filed a timely appeal of that decision, docketed in this Court as No. 1037, September
Term, 2018. We consolidated the cases for briefing.
For brevity and clarity, we rephrase the issues Pisner asks us to address as follows:2
1. Whether the circuit court erred in assuming jurisdiction over the trust,
appointing a substitute trustee, ordering an accounting, declining to remove
the substitute trustee, and approving distribution of the remaining trust
assets?

i

Rubinstein agreed with the circuit court’s rulings and is not a party to this appeal.

2 We set forth the issues, as presented in Pisner’s briefs, in an appendix to this
opinion.

-Unreported Opinion2. Whether the circuit court erred in holding Pisner in contempt for failing
to provide McCarthy with pertinent trust-related documents, as ordered by
the court?
;
Perceiving no reversible error, we affirm the judgment of the circuit court.

BACKGROUND
On December 12, 2008, Marion Pisner created a revocable trust agreement,
appointing herself as the trustee and primary beneficiary. Upon her death in January 2009,
her children, Pisner and Rubinstein, succeeded her as the co-trustees and beneficiaries.
By 2016, significant disagreements had arisen between the siblings, and Pisner
petitioned the circuit court for r. declaration of rights because, in his view, the trust had
“ceased to function,” and “this dysfunction” required the court to provide guidance as to
:'V;

how the trust should interpret the trust document. Rubinstein responded by asking the court
9

to order an independent audit of the trust by a third-party accountant, alleging that Pisner
had refused to assist with the accounting, failed to provide records Rubinstein had
requested, and used the trust funds for nis personal expenses, thereby violating his fiduciary
duty.

dr

At a hearing on August 24,2617, Rubinstein acknowledged that she and Pisner had
“lost the ability to work together as co-trustees.”3 Due to the nature of the disputes between
the pair, the fact that they.were both trustees and income beneficiaries of the trust, and that
Pisner was serving as the trust’s counsel, the circuit court considered whether it should, on

3 Pisner and Rubinstein represented themselves throughout the pendency of this
matter.
2

-Unreported Opinionits own motion, remove both Pisner and Rubinstein as trustees and appoint an independent
trustee. Rubinstein agreed that the appointment of an independent trustee and an audit
would be appropriate; Pisner objected.
Following the hearing, the circuit court issued an order requiring Pisner and
Rubinstein to show cause within 30 days why the court should not assume judicial
administration of the trust, remove Pisner and Rubinstein as trustees in favor of an
independent third-party trustee, and order an independent third-party accounting of the
trust. In response to the circuit court’s order, Rubinstein again agreed that the court should
assume judicial administration of the trust due to “ongoing animosity” between the trustees.
Pisner continued to disagree that removal of the trustees and an accounting were necessary.
The circuit court heard argument on the matter on September 28,2017. At the close
of the hearing, the court found, as a matter of fact, that Pisner and Rubinstein, as co-trustees
and beneficiaries of the trust, had “broad disputes,” including their construction of the trust
document itself, the appropriate disposition of the trust assets, and the need for an
accounting. In the circuit court’s view, Pisner and Rubinstein were unable to work together
to manage the trust, and without the court’s administration of the trust, “these issues
[would] not get resolved.” The circuit court found that the appropriate remedy would be
removal of the trustees and the appointment of a substitute trustee.
Because neither Pisner nor Rubinstein had identified a potential substitute trustee,
despite being given the opportunity by the court to do so, the circuit court appointed
McCarthy, an attorney who had “broad experience in matters such as these.” The circuit
3

-Unreported Opinioncourt, in finding that some accounting would be appropriate, explained it would direct
McCarthy to retain an accountant and report as to the appropriate breadth of an accounting,
after conducting a review.
By written order entered October 11,2017, the circuit court assumed jurisdiction of
the trust, appointed McCarthy as substitute trustee, and required McCarthy to file an
inventory of assets of the trust and undertake an accounting for the time period of January
1,2015 through September 30,2017.4 McCarthy filed an inventory on November 30,2017.
On January 18, 2018, the circuit court entered a modification order denying, among other
things, Pisner’s request for reconsideration of the court’s October 11, 2017 order and
deferring McCarthy’s task to engage an accountant to conduct an accounting.5
On February 1, 2018, McCarthy filed a suggestion of contempt, contending that
Pisner had “failed to turn over documents and information related to the Trust” in violation
of the court’s order, despite repeated requests. By order dated February 9, 2018, the court
ordered Pisner to show cause why he should not be held in contempt. Following a hearing
on April 4, 2018, the circuit court denied McCarthy’s suggestion of contempt but ordered

4 Pisner noted an interlocutory appeal of the circuit court’s order on November 13,
2017. That appeal was docketed as No. 1800, September Term, 2017. We dismissed that
appeal as premature by order dated February 21,2018.
5 Pisner noted an interlocutory appeal of the court’s order on January 24,2018. That
appeal was docketed as No. 2300, September Term, 2017. We dismissed that appeal as
premature by order dated April 2, 2018.
4

!'

-Unreported OpinionPisner and Rubinstein to produce enumerated trust documents to McCarthy by April 27,
2018.6
On April 24, 2018,.Pisner moved to remove McCarthy as substitute trustee “for his
breach of trust.” McCarthy responded that Pisner had not established any valid reason for
his removal and suggested that Pisner seemed “desperate to prevent [McCarthy] from
conducting the Court-ordered audit.” The circuit court denied Pisner’s motion to remove
McCarthy as substitute trustee by order entered on May 21, 2018. Pisner filed a notice of
appeal of that ruling on December 19, 2018; that appeal was docketed as No. 3041,
September Term, 2018 in this Court.
On April 30, 2018, McCarthy filed a petition for a finding of contempt with
incarceration against Pisner, who, McCarthy averred, continued to refuse to turn over all
the financial documents specified by the court’s April 5, 2018 order. The circuit court
issued an order to Pisner on May 7, 2018, requiring him to show cause why he should not
be held in contempt and incarcerated.
On May 22,2018, McCarthy advised the court that of the approximately 944 pages
of documents Pisner had provided him, very few complied with the court’s order; instead,

6 The court ordered Pisner to produce the following specific documents: (1) all
fiduciary tax returns, including all supporting documents, for the “relevant period” (defined
as January 1,2009 through October 2,2017); (2) settlement statement related to the sale of
any trust property during the relevant period; (3) all bank statements for trust accounts
during the relevant period; (4) canceled checks from all trust bank accounts, including
source material supporting the purpose for which each check was written during the
relevant period; (5) all documents related to sales of trust stocks during the relevant period;
and (6) all trust ledgers maintained during the relevant period.
5

-Unreported Opinionthey consisted mostly of “copies of tax returns without the required supporting
documentation and ledgers created by Gary Pisner, again, without supporting
documentation.” Pisner had failed to provide any other documents as ordered by the court,
and McCarthy was therefore unable to complete the court-ordered audit.
Following a contempt hearing on June 7,2018, the circuit court found that Pisner’s
testimony was “not entirely candid or truthful” and that Pisner had willfully refused to
supply trust-related documents to McCarthy. The court therefore granted McCarthy’s
petition for a finding of contempt and ordered Pisner to be incarcerated for 60 days, unless
he provided the required documents to McCarthy on or before July 20, 2018. Pisner did
not provide McCarthy with the required documentation. The court continued to find him
in contempt but vacated the sentence of jail time.
On July 13, 2018, Pisner filed a notice of appeal of the finding of contempt. That
appeal was docketed as No. 1037, September Term, 2018 in this Court.
On February 14, 2019, McCarthy filed a motion for approval of trust distribution.
Because Pisner had received distributions from the trust that totaled approximately
$594,000 more than distributions received by Rubinstein, McCarthy recommended that the
remaining available cash in the trust—approximately $490,000, less $50,000 to be
distributed to Pisner i f and when he executed a release in favor o f the trust and McCarthy—
be distributed to Rubinstein. The circuit court granted the motion following a hearing on
April 9, 2019 and entered its order on April 12, 2019.7 On April 29, 2019, Pisner filed a

7 Pisner did not attend the hearing.
6

“Unreported Opinionmotion for reconsideration of the court’s distribution order. The circuit court denied his
motion by order entered on May 28, 2019.
On May 13, 2019, Pisner filed a second notice of appeal in No. 3041, September
Term, 2018. It was substantially similar to his December 19, 2018 notice of appeal, with
an additional claim of error directed toward the circuit court’s April 12, 2019 order
approving final distribution from the trust.
DISCUSSION
In his consolidated appeals, Pisner argues that the circuit court erred in: (1)
assuming jurisdiction over the trust, removing him and Rubinstein as co-trustees,
appointing McCarthy as substitute trustee, declining to remove McCarthy as substitute
trustee, ordering an accounting, and approving the final distribution from the trust, all of
which denied him due process; and (2) holding him in contempt for failing to provide
McCarthy with documents, when McCarthy had not provided the court with clear and
convincing evidence of contempt, because Pisner had provided all the documents he had
and the testimony of McCarthy’s witnesses at the contempt hearing was “pervasively
false.”
/. Appeal No. 3041, September Term, 2018—The Court’s Jurisdiction Over the Trust
As a preliminary matter, we point out that Pisner’s initial notice of appeal in No.
3041, September Term, 2018, filed on December 19, 2018, was both premature and
untimely.
This Court has jurisdiction over an appeal “when the appeal is taken from a final
7

-Unreported Opinionjudgment or is otherwise permitted by law, and a timely notice of appeal was filed.” Doe
v. Sovereign Grace Ministries, Inc. ,217 Md. App. 650, 661 (2014). Pisner’s initial appeal
related to the circuit court’s rulings that it would assume jurisdiction over the
administration of the trust, remove Pisner and Rubinstein as trustees, appoint McCarthy as
successor trustee, and decline to remove McCarthy as trustee. Those rulings did not
dispose of all claims against all parties or conclude the case, which continued at least until
the court approved the final distribution from the trust in April 2019. Therefore, the circuit
court’s orders from which Pisner initially appealed were interlocutory, as they failed to
comprise a final appealable judgment. See Miller & Smith at Quercus, LLC v. Casey PMN,
LLC, 412 Md. 230, 241 (2010) (A “final judgment” is a judgment that “disposes of all
claims against all parties and concludes the case.”). See also Maryland Rule 2-602(a).
Notices of appeal filed prematurely, before the entry of a final judgment, ‘“are generally
of no force and effect.”’ Sovereign Grace Ministries, 217 Md. App. at 662 (quoting Jenkins
v. Jenkins, 112 Md. App. 390, 408 (1996)).*
In addition, even if there were some pertinent exception to the final judgment
requirement, Pisner filed his first notice of appeal in No. 3041, September Term, 2018, on
December 19,2018, but the circuit court’s rulings from which he purported to appeal were
entered between October 11,201.7 and June 27, 2018. Md. Rule 8-202(a) provides that a

8 There are exceptions to the requirement that an appeal may be taken only from a
final judgment, but none that apply here.
8

-Unreported Opinionnotice of appeal “shall be filed within 30 days after entry of the judgment or order from
which the appeal is taken/’ Although the thirty-day time limitation in the Maryland Rules
is no longer considered “jurisdictional,” “Maryland Rule 8-202(a) remains a binding rule
on appellants, and this Court will continue to enforce the Rule.” Rosales v. State, 463 Md.
552,568 (2019). It is plain that Pisner’s first notice of appeal was more than a year late as
it pertained to the first circuit court judgment, and more than four months late as it pertained
to the second. Finding these notices to be belated in the extreme, and noting no exceptional
circumstance justifying this Court ’s review, we hold that Pisner forfeited his right to appeal
in either instance.
Pisner, however, filed a second notice of appeal in No. 3041, September Term,
2018, after the circuit court approved the final distribution from the trust. The second
appeal was taken from the final judgment, so we will consider the issues Pisner raises
therein.9
Pisner argues that the circuit court erred or abused its discretion in assuming
jurisdiction over the trust, removing him and Rubinstein as co-trustees, appointing
McCarthy as substitute trustee, ordering an accounting, declining to remove McCarthy as
trustee, and approving the final distribution from the trust. We disagree.

9 The court’s order approving final distribution from the trust was entered on April
12, 2019, and Pisner filed his second notice of appeal on May 13, 2019, 31 days later.
Because May 12, 2019 fell on a Sunday, however, the notice of appeal filed the next
business day was timely. See Rule 1 -203(a)(I).
9

-Unreported Opinion-

Pursuant to Md. Code (1974, 2017 Repl. Vol.), §14.5-201 of the Estates & Trusts
Article (“ET”), “[ojn the invocation of the court’s jurisdiction by an interested person, on
the court’s own motion, or as otherwise provided by law, the court may intervene actively
in the administration of a trust, fashioning and implementing remedies as the public
interests of the beneficiaries may require.” In addition, ET §14.5-706(2) provides: “The
court may remove a trustee if.. .[t]he trustee has committed a serious breach of trust[, IJack
of cooperation among cotnistees substantially impairs the administration of the trust[t or
bjecause of unfitness, unwillingness, or persistent failure of the trustee to administer the
trust effectively, the court determines that removal of the trustee best serves the interests
of the beneficiaries[.]” (Emphasis added).
Pisner and Rubinstein conceded to significant stalemates and acknowledged that
they were unable to work together as trustees. Further, the circuit court, aware that the
siblings were trustees and income beneficiaries, and that Pisner was acting as the trust’s
attorney, questioned whether the removal of Pisner and Rubinstein and related actions were
appropriate. Because the court raised the issue, it permitted the siblings 30 days to agree
or object to its assertion of jurisdiction.
At the show cause hearing, Rubinstein agreed that the court’s proposed actions were
appropriate because of Pisner’s failure to permit a full audit, his refusal to share trust fund
documents, his use of trust funds to pay his personal expenses, and the siblings’ lack of
agreement on the sale of a major trust asset. Pisner, while objecting generally to his
removal as trustee, offered no objection sufficient to overcome the court’s finding that he
10

-Unreported Opinionand Rubinstein were “unable to work together to manage the trust” and therefore unable to
resolve the “number [of] issues that require resolution” to permit the beneficiaries to move
forward.
The court found that the remedy that would allow the matter to move forward was
“the removal of these trustees for the time being and the appointment of a substitute
trustee.” And because neither party had accepted the court’s invitation to identify a
potential substitute trustee, the court appointed McCarthy, an attorney who had “broad
experience in matters such as these.”
In light of the ongoing animosity and lack of cooperation between Pisner and
Rubinstein and the potential for conflict of interest in Pisner’s status as trustee, beneficiary,
and attorney of the trust, we perceive no abuse of the circuit court’s discretion in assuming
jurisdiction of the trust, removing Pisner and Rubinstein as co-trustees, appointing
McCarthy as substitute trustee, and ordering an accounting, on its own motion. Indeed,
Pisner, in his brief, does not offer a reason the court abused its discretion in so doing;
instead, he merely argues that the court failed to address the issue Pisner raised in his
petition for a declaration of rights.
Similarly, we perceive no abuse of discretion in the court’s failure to remove
McCarthy as substitute trustee at Pisner’s request. There appears to be no dispute that
McCarthy was qualified to act as substitute trustee, and despite Pisner’s claims that
McCarthy sought to hold him in contempt even though Pisner was “technically” his client,
provided legal services to Rubinstein, offered false testimony at a hearing, “surreptitiously”
11

-Unreported Opiniontransferred trust assets to Rubinstein* and withheld requested documents from him, Pisner
presented no credible evidence in support of any of those alleged infractions.
Finally, because we conclude that the court permissibly assumed jurisdiction of the
trust and acted in its best interest in removing the co-trustees, appointing an independent
substitute trustee, and ordering an inventory and accounting of the trust, we find no error
or abuse of discretion in the court’s order of final distribution of the trust funds, after a
hearing at which Pisner elected not to appear to offer evidence in contravention of the
evidence presented by McCarthy.10
11. Appeal No. 1037, September Term, 2018—The Court’s Order of Contempt
Pisner also avers that the circuit court erred or abused its discretion in holding him
in contempt and threatening 60 days’ incarceration unless he purged the contempt by
providing allegedly missing trust documents to McCarthy.11 Pisner contends that the

10 Moreover, although Pisner challenged the circuit court’s order approving the final
distribution of the trust assets in his second notice of appeal in No. 3041, September Term,
2018, he offers no argument or authority in his brief to support his claim of legal error or
abuse of discretion on the part of the circuit court. Therefore, he has failed to preserve that
issue for our consideration. See Klauenbergv. State, 355 Md. 528,552 (1999) (arguments
not presented in a brief or not presented with particularity will not be considered on
appeal).
Finally, our determination that the court did not err or abuse its discretion in its
rulings applies equally to its denial of Pisner’s related motions to reconsider, to strike, for
a more definite statement, and to compel access to trust documents. See Pisner’s notice of
appeal, filed December 18, 2018.
H •>

A contempt proceeding, even though it may grow out of or be associated with
another proceeding, is Ordinarily regarded as a collateral or separate action from the
underlying case and as separately appealable, with appellate review normally limited to the
12

-Unreported Opinioncontempt finding was based on false testimony by Rubinstein and McCarthy’s accountant
and that he had provided McCarthy with “all documents that he had[.]” The court’s finding
of contempt, he concludes, was therefore improper.
The power to hold one in contempt “is vested in the trial court.” State v. Crawford,
239 Md. App. 84, 111 (2018). Appellate courts will not disturb a trial court’s finding of
contempt “absent an abuse of discretion or a clearly erroneous finding of fact upon which
the contempt was imposed.” Kowalczyk v. Bresler, 231 Md. App. 203, 209 (2016).
‘“[A] person whose conduct tends to bring the authority and administration of the
law into disrespect or disregard, interferes with or prejudices parties or their witnesses
during litigation, or otherwise tends to impede, embarrass, or obstruct the court in the
discharge of its duties, has committed a contempt.’” Fisher v. McCrary Crescent City,
LLC, 186 Md. App. 86,114 (2009) (quoting Goldsborough v. State, 12 Md. App. 346,355
(1971)). If the contempt is civil, i.e. intended to coerce compliance with a court order, and
the court decides to impose sanctions, the court may issue coercive sanctions, such as
imprisonment until the cdntemnor complies with the court’s order, or remedial sanctions,
such as a fine payable to a plaintiff. Jones v. State, 351 Md., 264, 278 (1998).
A court must find civil contempt by a preponderance of the evidence. State v. Roll
and Scholl, 267 Md. 714, 728 (1973). Following a finding of contempt, the court must

contempt order itself.” Stevem v. Toknda, 216 Md. App. 155, 165 (2014) (internal
quotation marks and citations omitted).

13

-Unreported Opinionissue a written order specifying (I) the coercive sanction imposed for the contempt, and
(2) how the contempt may be purged. Md. Rule 15-207(d)(2).
Here, McCarthy filed a motion asking the court to hold Pisner in contempt for failing
to turn over trust-related documents. Following a hearing, the court declined to do so, but
it issued an order specifying all the documents Pisner was required to tum over to
McCarthy and the deadline by which he was required to do so.
When Pisner failed to provide the enumerated documents by the deadline, McCarthy
filed another motion for contempt, with incarceration. Therein, he explained that, despite
being apprised of the specific documents to be produced, Pisner had provided only
documents he had created, but virtually none of the requested documents, despite the
court’s order. Following a hearing on the contempt motion, which included testimony from
Rubinstein and the accountant McCarthy had retained to perform the trust’s accounting,
the court found Pisner’s testimony to be lack credibility and found him in contempt with a
penalty of 60 days’ incarceration.
Based on Pisner’s conduct, the circuit court found by a preponderance of the
evidence that he had willfully failed to comply with its order. We agree. Pisner’s pattern
of delay and persistent attempts to avoid producing the trust documents so McCarthy could
conduct the court-ordered accounting amounted to a willful failure to comply with the
court’s order. The circuit court was not clearly erroneous in its finding of contempt.

14

Unreported OpinionJUDGMENT OF THE CIRCUIT COURT FOR
MONTGOMERY COUNTY AFFIRMED; COSTS
ASSESSED TO APPELLANT.

APPENDIX TO OPINION IN CONSOLIDATED CASES 1037 and 3041,
SEPTEMBER TERM, 2018
The issues, as presented in Pisner’s briefs, are:
In No. 3041, September Term, 2018
1. Under what circumstances can a trustee seek the incarceration of
his client the beneficiary of the trust?
2. Is a Beneficiary a client of a Trustee?
3. What is the proper level of procedural due process in trust case?
4. Why in this matter were filing of McCarthy and Rubinstein never
rejected because they were not attested to under oath pursuant to MD Rule
2-311(d)?
5. Was withholding the trust file from a Beneficiary a violation of
statute and an ethics violation?
6. Does a Declaration of Rights require a Plaintiff and a Defendant?
7. Is an Audit valid if the Beneficiaries are refused access to the
Trustee’s file?
In No. 1037, September Term, 2018
1. Under what conditions can a trustee seek the incarceration of the
beneficiary of the trust.
2. Under What conditions can a lawyer seek the incarceration of his
client.

15

-Unreported Opinion3. When evidence of incontrovertible pervasive false testimony that
was the basis for the contempt finding was submitted to the court, is the trial
court legally obliged to reverse its finding of contempt.
4. To what extent does one alleging contempt due to missing
documents, be specific about what is missing.
5. If a party believes that documents are missing pursuant to a court
order, must he give notice to the party deemed deficient time to cure or
explain the alleged deficiency: In this instance there were no
communications and the documents were supplied on a Friday and the
petition for contempt was filed on the following Monday.
6. If document from more than three years prior to an order were
destroyed or deleted and cannot be produced and there is not possibility to
produce said documents can a party be found in civil contempt and
incarcerated.
7. Under what conditions can a party be incarcerated pursuant to civil
contempt, when the cure of the contempt is impossible.
8. Can a court, acting pursuant to a civil contempt hearing, when a
jury was requested, switch to a criminal contempt proceeding.

V'.-

16

E-FILED^

APPENDIX ii
GARY PISNER

*

IN THE

*

COURT OF APPEALS

*

OF MARYLAND

*

Petition Docket No. 90
September Term, 2020

v.

Court of Appeals 1
Suzanne C. Johnson, I
Clerk of Court I
7/24/2020 11:50 AM I

*
*
*

ROBERT MCCARTHY

(Nos. 1037 & 3041, Sept. Term, 2018
Court of Special Appeals)
(No. 427983V, Circuit Court
for Montgomery County)

ORDER

Upon consideration of the petition for a writ of certiorari to the Court of Special
Appeals filed in the above-captioned case, it is this 24^ day of July, 2020

ORDERED, by the Court of Appeals of Maryland, that the petition be, and it is
hereby, DENIED as there has been no showing that review by certiorari is desirable and in the
public interest.

/s/ Mary Ellen Barbera
Chief Judge

r

E-FILED^B
Court of Appeals '
Suzanne C. Johnson,
Clerk of Court
7/24/2020 11:51 AM

GARY PISNER

*

IN THE

*

COURT OF APPEALS

*

OF MARYLAND

*

Petition Docket No. 91
September Term, 2020

v.
*
*
*

ROBERT MCCARTHY

(Nos. 1037 & 3041, Sept. Term, 2018
Court of Special Appeals)
(No. 427983V, Circuit Court
for Montgomery County)

ORDER
Upon consideration of the petition for a writ of certiorari to the Court of Special
Appeals and the answer filed thereto, in the above-captioned case, it is this 24th day of July,
2020

ORDERED, by the Court of Appeals of Maryland, that the petition be, and it is
hereby, DENIED as there has been no showing that review by certiorari is desirable and in the
public interest.

/s/ Mary Ellen Barbera
Chief Judge

i

1

COURT OF SPECIAL APPEALS OF MARYLAND
CORRECTION NOTICE
March 23, 2020
Re:

APPENDIX 1

Case No. 1037, Sept. Term, 2018
Case No. 3041, Sept. Term, 2018
Gary Pisner v. Robert M. McCarthy

4

Unreported opinion Tiled March 18,2020, by (Berger, Wells, Wright, Alexander Jr.
Senior Judge, Specially Assigned, JJ.)
Authoring judge: Wright, J.
On page 9, first paragraph, lines 1-6 NOW READS
The requirement that a notice of appeal be .filed within 30 days of a final judgment
is
jurisdictional; if the requirement is not met, the appellate court acquires no jurisdiction and the
appeal must be dismissed.”’ Keys v. State, 195 Md. App. 19, 27 (2010) (quoting Houghton v.
County Comm 'rs ofKent County, 305Md. 407, 413(1986)). For these reasons, the first notice of
appeal did not confer jurisdiction upon this Court and was no force and effect.
SHOULD READ
Although the thirty-day time limitation in the Maryland Rules is no longer considered
“jurisdictional,” “Maryland Rule 8-202(a) remains a binding rule on appellants, and this Court
will continue to enforce the Rule.” Rosales v. State, 463 Md. 552, 568 (2019). It is plain that
Pisner’s first notice of appeal was more than a year late as it pertained to the first circuit court
judgment, and more than four months late as it pertained to the second. Finding these notices to
be belated in the extreme, and noting no exceptional circumstances justifying this Court’s
review, we hold that Pisner forfeited his right to appeal in either instance.

A corrected opinion has been posted on the Court’s webpage: www.mdcourts.uov/cosappeals.

IS/
Gregory Hilton
Clerk of the Court of Special Appeals

